*!■

No. 20-4050

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL C. MURPHY, PETITIONER
YS.
ESTATE OF GLORIA KAY MURPHY-WALLACE, RESPONDENT
PROOF OF SERVICE
I, Michael C. Murphy, pro se, do swear or declare that on this date, July 9, 2021, as
required by Supreme Court Rule 29 I have served the enclosed Petition For Rehearing on
each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United Sates mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Kelley Hinsley, Attorney for Respondent
518 W. 3rd North Street
Morristown, TN 37814
(423) 587-1131

■

I declare that the Petition complies with the word limitation, and I declare under penalty of
perjury that the foregoing is true and correct.
Executed on July 9, 2021

Michael C. Murphy

